Tlnttdt j&httes (Eaurt of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
September 16,2020
Before
DIANE S. SYKES, Chief Judge
AMY C. BARRETT, Circuit Judge

No. 19-3414
OTHA S. HAMILTON,
Petitioner-Appellant,

v.
DENNIS REAGLE, Warden,
Respondent-Appellee.

Appeal from the United States District
Court for the Southern District of
Indiana, Indianapolis Division.
No. 1:18-CV-02740-TWP-DWL
Tanya Walton Pratt,

Judge.

ORDER
On consideration of the petition for rehearing and for rehearing en banc, no judge
in active service requested a vote on the petition for rehearing en banc, and both judges
voted to deny rehearing. It is therefore ordered that the petition for rehearing and for
rehearing en banc is DENIED.

Hmtefr States Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
Submitted August 13,2020
Decided August 19, 2020
Before
DIANE S. SYKES, Chief Judge
AMY C. BARRETT, Circuit Judge

No. 19-3414
OTHA S. HAMILTON,
Petitioner-Appellant,

v.
DENNIS REAGLE,
Respondent-Appellee.

Appeal from the United States District
Court for the Southern District of Indiana,
Indianapolis Division.
No. 1:18-CV-02740-TWP-DML
Tanya Walton Pratt,

Judge.
ORDER

Otha Hamilton has filed a notice of appeal from the denial of Iris petition under
28 U.S.C. § 2254 and an application for a certificate of appealability. We have reviewed
the final order of the district court and the record on appeal and find no substantial
showing of the denial of a constitutional right. See 28 U.S.C. § 2253(c)(2).
Accordingly, we DENY the request for a certificate of appealability and DENY
Hamilton's motion to proceed in forma pauperis.

<>

Case l:18-cv-02740-TWP-DML Document 22 Filed 12/09/19 Page 18 of 24 PagelD #: 500

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF INDIANA
INDIANAPOLIS DIVISION
OTHA S. HAMILTON,

)
)
)
)
)
)
)
)
)

Petitioner,
v.
DUSHAN ZATECKY,
Respondent.

No. 1:18-CV-02740-TWP-DML

Final Judgment
The Court now enters final judgment in favor of the respondent and against the petitioner.
The petition for a writ of habeas corpus is denied, and no certificate of appealability shall issue.

Date:

11/6/2019

Laura Briggs, Clerk of Court
Deputy Clerk

Distribution:
OTHA S. HAMILTON
217667
PENDLETON - CF
PENDLETON CORRECTIONAL FACILITY
Electronic Service Participant - Court Only
Andrew A. Kobe
INDIANA ATTORNEY GENERAL
andrew.kobe@atg.in.gov
James Blaine Martin

INDIANA ATTORNEY GENERAL
james.martin@atg.in.gov

TANYA WALTON PRATT, JUDGE
United States District Court
Southern District of Indiana

1*

Case l:18-cv-02740-TWP-DML Document 22 Filed 12/09/19 Page 7 of 24 PagelD #: 489

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF INDIANA
INDIANAPOLIS DIVISION
OTHA S. HAMILTON,

)
)
)
)
)
)
)
)
)

Petitioner,
v.
DUSHAN ZATECKY,
Respondent.

.

No. 1:18-CV-02740-TWP-DML

Order Denying Petition for a Writ of Habeas Corpus
In his petition for a writ of habeas corpus, petitioner Otha S. Hamilton (“Hamilton”)
challenges his 2010 Marion County conviction for Class A child molesting. The conviction stems
from Hamilton forcing his wife’s nine-year-old granddaughter to perform oral sex on him. For the
reasons explained in this Order, Hamilton’s petition for a writ of habeas corpus is denied, and the
action is dismissed with prejudice. In addition, the Court finds that a certificate of appealability
should not issue.
I. Background
The Indiana Supreme Court summarized Hamilton’s offense as follows:
Forty-four-year-old Otha S. Hamilton resided in Indianapolis with his wife, who
had twelve grandchildren, none of them by a child of Hamilton. Several of the
grandchildren would regularly visit at any given time, usually on the weekends.
Sometime between October and December 2009, one grandchild, nine-year-old
T.M., stayed overnight at her grandmother’s house so her grandmother could take
her to a dentist appointment the next morning. No other grandchildren were present.
After arriving, T.M. watched television and had dinner that evening. She later went
downstairs to the basement to play pool with Hamilton, her stepgrandfather.
After T.M.’s grandmother had gone to bed, Hamilton and T.M. continued playing
pool. Hamilton then told T.M. to smoke a cigarette and to drink some of his beer.
He then told T.M. to go with him upstairs and outside to the unattached garage
because he had something he wanted to give her.
1

dase l:18-cv-02740-TWP-DML Document 22 Filed 12/09/19 Page 8 of 24 PagelD #: 490 .

In the garage, Hamilton told T.M. to perform oral sex on him. At first, T.M. refused,
but Hamilton told T.M. that he would hurt her grandmother if she did not. Hamilton
pushed T.M. to her knees and then pushed her head down. Hamilton’s penis was in
T.M.’s mouth for about ten minutes before he ejaculated, causing T.M. to vomit on
the table and the floor. T.M. went back inside the house and did not tell anyone
right away about the incident.
The incident first came to light about five or six months later.
Hamilton v. State, 955 N.E.2d 723, 724-25 (Ind. 2011) (“Hamilton IF) (citations omitted).
Hamilton’s defense focused in part on Hamilton’s difficulty obtaining an erection.
Hamilton’s wife testified that he had a surgery before they were married that affected his erection.
Trial Tr. 169-70. Hamilton’s penis “had firmness” but would not get “really rigid” or “stand up
straight.” Trial Tr. 171. He could obtain an erection sufficient for sexual intercourse. Id. If he was
sitting in a chair, he could obtain enough of an erection sufficient that his penis would “point
straight forward,” but it would not rise above his legs. Trial Tr. 174-75.
A jury convicted Hamilton, and the trial court sentenced him to 50 years in prison. Id. at
725. Hamilton appealed, arguing that he was convicted based on insufficient evidence and that his
sentence was inappropriate. Dkt. 7-3. The Indiana Court of Appeals affirmed. Hamilton v. State,
2011 WL 2139074 (Ind. Ct. App. May 31, 2011) (“Hamilton F). The Indiana Supreme Court
affirmed the judgment of conviction but reduced Hamilton’s sentence to 35 years. Hamilton II,
955 N.E.2d at 728.
Hamilton filed a state post-conviction petition alleging that trial counsel was ineffective
for (i) failing to investigate Hamilton’s erectile dysfunction, (ii) stipulating to the admission of a
video of T.M.’s interview with a forensic child interviewer, and (iii) failing to impeach T.M.
regarding her out-of-court statement. See Hamilton v. State, 2017 WL 6003138, at *2-3 (Ind. Ct.
App. Dec. 5, 2017) (“Hamilton IIF). He further alleged that trial counsel failed to subject the
State’s case to adversarial testing and that direct appeal counsel was ineffective for failing to argue
2

Case l:18-cv-02740-TWP-DML Document 22 Filed 12/09/19 Page 9 of 24 PagelD #: 491

that the trial court abused its discretion by allowing a demonstrative exhibit during closing
argument. See id. at *4-6. The trial court denied Hamilton’s petition following a hearing, and the
Indiana Court of Appeals affirmed. Id. at *7. The Indiana Supreme Court denied Hamilton’s
petition to transfer. Dkt. 7-9 at 9.
Hamilton next filed a petition for a writ of habeas corpus pursuant to 28 U.S.C. § 2254
alleging that
A.

he was convicted based on insufficient evidence;

B.

trial counsel was ineffective for
1.

failing to investigate Hamilton’s erectile dysfunction;

2.

stipulating to the admission of a video of T.M.’s interview with a forensic
child interviewer; and

3.

failing to impeach T.M. regarding her out-of-court statement;

C.

trial counsel failed to subject the State’s case to meaningful adversarial testing; and

D.

direct appeal counsel failed to argue that the prosecution’s use of a demonstrative
during closing statements was fundamental error.

Dkt. 1.
II. Applicable Law
A federal court may grant habeas relief only if the petitioner demonstrates that he is in
custody “in violation of the Constitution or laws ... of the United States.” 28 U.S.C. § 2254(a).
Where a state court has adjudicated the merits of a petitioner’s claim, a federal court cannot grant
habeas relief unless the state court’s adjudication
(1) resulted in a decision that was contrary to, or involved an unreasonable
application of, clearly established Federal law, as determined by the Supreme Court
of the United States; or
(2) resulted in a decision that was based on an unreasonable determination of the
facts in light of the evidence presented in the State court proceeding.
28 U.S.C. § 2254(d). “A state court’s determination that a claim lacks merit precludes federal
3

'**

. Case l:18-cv-02740-TWP-DML Document 22 Filed 12/09/19 Page 10 of 24 PagelD #: 492

habeas relief so long as fairminded jurists could disagree on the correctness of the state court’s
decision.” Harrington v. Richter, 562 U.S. 86, 101 (2011). “If this standard is difficult to meet,
that is because it was meant to be.” Id. at 102.
“The decision federal courts look to is the last reasoned state-court decision to decide the
merits of the case.” Dassey v. Dittmann, 877 F.3d 297, 302 (7th Cir. 2017) (en banc). If the last
reasoned state court decision did not adjudicate the merits of a claim, or if the adjudication was
unreasonable under § 2254(d), federal habeas review of that claim is de novo. Thomas v. Clements,
789 F.3d 760, 766-68 (7th Cir. 2015). Under § 2254(d) or de novo review, “a determination of a
factual issue made by a State court shall be presumed to be correct. The applicant shall have the
burden of rebutting the presumption of correctness by clear and convincing evidence.” 28 U.S.C.
§ 2254(e)(1).
m. Discussion
A. Sufficient Evidence of Guilt
Hamilton argues that he was convicted based on insufficient evidence, in violation of due
process. The Indiana Court of Appeals rejected this claim in a reasoned opinion on direct appeal,
and the Indiana Supreme Court summarily affirmed. Hamilton II, 955 N.E.2d at 725. Because the
Indiana Supreme Court’s opinion contains no reasons for its result, this Court “looks through” to
the state appellate court’s opinion for § 2254(d) purposes. See Wilson v. Sellers, 138 S. Ct. 1188,
1192(2018).
“[EJvidence is sufficient to support a conviction if, ‘after viewing the evidence in the light
most favorable to the prosecution, any rational trier of fact could have found the essential elements
of the crime beyond a reasonable doubt.’” Coleman v. Johnson, 566 U.S. 650,654 (2012) (quoting
Jackson v. Virginia, 443 U.S. 307, 319 (1979)). “[HJabeas reviews of Jackson claims are subject

4

C&se l:18-cv-02740-TWP-DML Document 22 Filed 12/09/19 Page 11 of 24 PagelD #: 493

to two levels of judicial deference creating a high bar: first, the state appellate court determines
whether any rational trier of fact could have found the evidence sufficient; second, a federal court
may only overturn the appellate court’s finding of sufficient evidence if it was objectively
unreasonable.” Saxon v. Lashbrook, 873 F.3d 982, 988 (7th Cir. 2017).
The Indiana Court of Appeals held that T.M.’s testimony was sufficient evidence to convict
Hamilton. Hamilton I, 2011 WL 2139074, at *2. The “‘testimony of a single eyewitness suffices
for conviction even if 20 bishops testify that the eyewitness is a liar.’” United States v. TorresChavez, 744 F.3d 988, 992 (7th Cir. 2014) (quoting Hayes v. Battaglia, 403 F.3d 935, 938 (7th
Cir. 2005)).
The elements of Class A child molesting are satisfied where a person at least 21 years old
engages in oral sex1 with a person less than 14 years old. Ind. Code 3 5-42-4-3(a)(1) (2009).
Ind. Code 35-41-1-9(1) (2009). Here, nine-year-old T.M. testified that Hamilton gave her beer her,
told her to put his penis in her mouth, threatened to hurt T.M.’s grandmother if she did not comply,
and pushed T.M. to her knees while he sat in a chair with his penis exposed. Trial Tr. 31-32,
36-37. T.M. further testified that she put Hamilton’s penis in her mouth for several minutes until
he ejaculated. Trial Tr. 37-38.
Hamilton argues that T.M.’s testimony should be disregarded because of her description of
his erection. Dkt. 11 at 9-10. T.M. testified that she could not see Hamilton’s penis but that it felt
“straight” when it was in her mouth. Trial Tr. 36-37; see also Trial Tr. 54-55. According to
Hamilton, this would have been impossible given his medical condition. Dkt. 11 at 9-10. But
Hamilton’s wife testified that he was capable of obtaining an erection sufficient for sexual

l

When Mr. Hamilton committed his offense, the statute referred to “deviate sexual conduct.” Ind. Code 35-42-43(a)(1) (2009). Now, the statute refers to “other sexual conduct.” Ind. Code 35-42-4-3(a)(1) (2019). Both definitions
include oral sex. Ind. Code 35-41-1-9 (2009); Ind. Code 35-31.5-2-221.5 (2019).

5

I

Ik *

Case l:18-cv-02740-TWP-DML Document 22 Filed 12/09/19 Page 12 of 24 PagelD #: 494

intercourse. Trial Tr. 171. She also testified that if he was sitting in a chair his penis could “point
straight forward.” Trial Tr. 174-75. This testimony is consistent with the nine-year-old victim’s
testimony that Hamilton’s penis was “straight” when he made her perform oral sex on him.
Trial Tr. 36-37.
The state appellate court reasonably held that there was sufficient evidence to convict
Hamilton of child molesting, so this claim is barred by 28 U.S.C. § 2254(d).
B. Trial Counsel’s Effectiveness
To succeed on a claim that trial counsel was ineffective, a petitioner must show that
counsel’s performance was deficient and prejudicial. Maier v. Smith, 912 F.3d 1064, 1070 (7th
Cir. 2019) (citing Stricklandv. Washington, 466 U.S. 668, 689-92 (1984)). Deficient performance
means that counsel’s actions “fell below an objective standard of reasonableness,” and prejudice
requires “a reasonable probability that, but for counsel’s unprofessional errors, the result of the
proceeding would have been different.” Strickland, 466 U.S. at 688, 694.
In federal habeas proceedings, counsel’s performance is entitled to “doubly deferential”
review. Richter, 562 U.S. at 105. The state court applied the first level of deference by deciding
only whether counsel’s performance was reasonable, not whether it was optimal. Id. at 111. This
Court then applies a second level of deference by deciding only whether the state court’s decision
was reasonable, not whether it was right. Id. at 103.
Hamilton complains regarding three aspects of trial counsel’s performance. The Court will
address each in turn.
1. Investigation of Erectile Dysfunction
Hamilton asserts that he told trial counsel four days before trial that he had a medical
condition that prevented him from obtaining an erection. Dkt. 11 at 13. He complains that counsel

6

C&se l:18-cv-02740-TWP-DML Document 22 Filed 12/09/19 Page 13 of 24 PagelD #: 495

did not properly investigate the medical condition. The Indiana Court of Appeals on post­
conviction review held that Hamilton failed to show deficient performance or prejudice. Hamilton
III, 2017 WL 6003138, at *3. That holding was reasonable.
Hamilton failed to show-

ither in state court or on habeas review—any exculpatory

evidence that counsel would have uncovered with further investigation. This fact alone dooms his
claim. See United States v. Lathrop, 634 F.3d 931, 939 (7th Cir. 2011) (“When a petitioner alleges
that counsel's failure to investigate resulted in ineffective assistance, the petitioner has the burden
of providing the court with specific information as to what the investigation would have
produced.”). Hamilton suggests that counsel should have sought medical records. Dkt. 11 at
13-14. But Hamilton has not asserted that any medical records would have provided meaningfully
different information than his wife’s first-hand descriptions.
Accordingly, § 2254(d) bars relief on this complaint regarding counsel’s performance.
2. Stipulation to Out-of-Court Statement
Hamilton complains that trial counsel was ineffective for stipulating to the introduction of
a video recording of T.M.’s out-of-court interview with a forensic child interviewer. The Indiana
Court of Appeals on post-conviction review held that counsel made an informed, reasonable,
strategic decision. Hamilton III, 2017 WL 6003138, at *3. That holding was reasonable.
Trial counsel had reviewed the video, and he thought it would benefit Hamilton because of
inconsistencies between T.M.’s recorded statements and her trial testimony. Indeed, as trial
counsel explained to the trial court during the stipulation, he preferred introducing the video to
impeaching T.M. through live questioning:
I don’t want to have to call T.M. back; I don’t want to have to call [the forensic
child interviewer] tomorrow if I can help it. If I have to, I will. But if they can play
the tape and it resolves that issue... it’ 11 allow me to argue what I want to. Certainly

7

f

Case l:18-cv-02740-TWP-DML Document 22 Filed 12/09/19 Page 14 of 24 PagelD #: 496

I think the State could still argue against it and they may even feel like they can
make a better argument having—but I’m willing to risk that, I’m fine with that.
Trial Tr. 139.
To impeach T.M. based on her prior inconsistent statements, counsel had the choice to
either (1) cross-examine a nine-year-old girl to point out her prior inconsistent statements or
(2) stipulate to introduction of a recorded interview that showed her prior inconsistent statements.
Choosing the latter was reasonable according to the Indiana Court of Appeals. This Court agrees
that this holding was reasonable. Accordingly, § 2254(d) bars relief on this complaint regarding
counsel’s performance.
3. Failure to Impeach Victim Regarding Prior Statement
Hamilton concedes that counsel impeached T.M. regarding her trial testimony, but he
complains that counsel “totally failed to impeach T.M. in regards to her pre trial statement.” Id.
The Indiana Court of Appeals held on post-conviction review that trial counsel was not deficient
in this regard. Hamilton III, 2017 WL 6003138, at *3. That holding was reasonable.
As the Indiana Court of appeals noted, trial counsel extensively cross-examined T.M.,
challenging her on details of her account and her failure to report Hamilton’s actions sooner. Id.
In closing argument, trial counsel emphasized the inconsistencies between T.M.’s trial testimony
and her out-of-court statement. Trial Tr. 284-89. Hamilton offers no additional information that
counsel should have elicited on cross-examination or impeachment evidence that counsel should
have introduced. He has therefore failed to show that the Indiana Court of Appeals was
unreasonable in finding that counsel’s impeachment of T.M. was not deficient. Section 2254(d)
bars relief on this complaint regarding counsel’s performance.

8

r

-V1

Case l:18-cv-02740-TWP-DML Document 22 Filed 12/09/19 Page 15 of 24 PagelD #: 497

C. “Meaningful Adversarial Testing”
Hamilton also alleges that trial counsel failed to subject the state’s case to meaningful
adversarial testing—an allegation that suggests he is invoking United States v. Cronic, 466 U.S.
648 (1984). But Hamilton disavows any reliance on Cronic in his reply and explains that he merely
intended to argue cumulative prejudice based on trial counsel’s alleged errors. Dkt. 11 at 18-19. .
Because Hamilton has failed to show deficient performance, a cumulative prejudice argument
cannot salvage his ineffective-assistance claim.
D. Appellate Counsel’s Effectiveness
Finally, Hamilton asserts that direct appeal counsel was ineffective for failing to argue
fundamental error based on the prosecutor’s use of a demonstrative exhibit during rebuttal closing
argument. “The general Strickland standard governs claims of ineffective assistance of appellate
counsel as well as trial counsel.” Makiel v. Butler, 782 F.3d 882, 897 (7th Cir. 2015) (noting that
when the claim is poor issue selection, “appellate counsel’s performance is deficient under
Strickland only if she fails to argue an issue that is both ‘obvious’ and ‘clearly stronger’ than the
issues actually raised”).
At trial, the prosecutor used a demonstrative that displayed a (correct) proposition of
Indiana law and supporting citations to Indiana appellate decisions. Trial Tr. 263, 298—99.
Trial counsel did not make a contemporaneous objection. Instead, he jumped at the chance to
present a sur-rebuttal, which the trial judge had suggested would be available if the prosecutor
presented the demonstrative on rebuttal. Trial Tr. 265, 308-11.
The Indiana Court of Appeals on post-conviction review held that direct appeal counsel
was not ineffective for failing to argue for reversal based on the demonstrative. Hamilton III, 2017
WL 6003138, at *4-6. Because trial counsel did not make a contemporaneous objection, the use

9

i*

Case l:18-cv-02740-TWP-DML Document 22 Filed 12/09/19 Page 16 of 24 PagelD #: 498
r

of a demonstrative could have been reviewed on direct appeal only for fundamental error.
Hamilton III, 2017 WL 6003138, at *6. The post-conviction appellate court concluded, as a matter
of state law, that such an argument would have failed. Id. This Court cannot question an Indiana
Court’s application of Indiana law. Miller v. Zatecky, 820 F.3d 275, 277 (7th Cir. 2016) (citing
Estelle v. McGuire, 502 U.S. 62, 67-68 (1991)). Moreover, if—as the Indiana Court of Appeals
held—Hamilton’s proposed argument would have failed on direct appeal, counsel cannot have
been ineffective for failing to raise it. Id. at 276.
IV. Certificate of Appealability
“A state prisoner whose petition for a writ of habeas corpus is denied by a federal district
court does not enjoy an absolute right to appeal.” Buck v. Davis, 137 S. Ct. 759, 773 (2017).
Instead, the prisoner must first obtain a certificate of appealability. See 28 U.S.C. § 2253(c)(1).
“A certificate of appealability may issue ... only if the applicant has made a substantial showing
of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2). In deciding whether a certificate of
appealability should issue, “the only question is whether the applicant has shown that jurists of
reason could disagree with the district court’s resolution of his constitutional claims or that jurists
could conclude the issues presented are adequate to deserve encouragement to proceed further.”
Buck, 137 S. Ct. at 773 (citation and quotation marks omitted).
Rule 11(a) of the Rules Governing Section 2254 Proceedings in the United States District
Courts requires the district court to “issue or deny a certificate of appealability when it enters a
final order adverse to the applicant.” Here, no reasonable jurist could disagree that Hamilton’s
claims are barred by 28 U.S.C. § 2254(d) or are otherwise without merit. A certificate of
appealability is therefore denied.

10

»>

Case l:18-cv-02740-TWP-DML Document 22 Filed 12/09/19 Page 17 of 24 PagelD #: 499

V. Conclusion
Hamilton’s petition for a writ of habeas corpus pursuant to 28 U.S.C. § 2254 is denied,
and a certificate of appealability shall not issue. Final judgment in accordance with this decision
shall issue.
IT IS SO ORDERED.
Date: 11/6/2019
TANYA WALTON PRATT, JUDGE
United States District Court
Southern District of Indiana

Distribution:
OTHA S. HAMILTON
217667
PENDLETON-CF
PENDLETON CORRECTIONAL FACILITY
Electronic Service Participant - Court Only
Andrew A. Kobe
INDIANA ATTORNEY GENERAL
andrew.kobe@atg.in.gov
James Blaine Martin
INDIANA ATTORNEY GENERAL
james.martin@atg.in.gov

11

?>

L

Case 1:18-cv-02740-TWP-DML Document 21 Filed 12/09/19 Page 1 of 2 PagelD #: 481

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF INDIANA
INDIANAPOLIS DIVISION
OTHA S. HAMILTON,
Petitioner,
v.

DUSHAN ZATECKY,
Respondent.

)
)
)
)
)
)
)
)
)

No. 1:18-CV-02740-TWP-DML

Order Denying Motion for Certificate of Appealability and
Denying Motion to Proceed In Forma Pauperis on Appeal
The Court denied petitioner Otha S. Hamilton’s 28 U.S.C. § 2254 petition for a writ of
habeas corpus, declined to issue a certificate of appealability, and entered final judgment on
November 6, 2019. Dkts. 15 and 16. Mr. Hamilton filed a notice of appeal on December 6, 2019.
Dkt. 17.
Mr. Hamilton seeks leave to proceed in forma pauperis on appeal. An appeal may not be
taken in forma pauperis if the trial court certifies that the appeal is not taken in good faith.
28 U.S.C. § 1915. “[T]o sue in bad faith means merely to sue on the basis of a frivolous claim,
which is to say a claim that no reasonable person could suppose to have any merit.” Lee v. Clinton,
209 F.3d 1025, 1026 (7th Cir. 2000). As discussed in the Court’s order denying the petition, no
objectively reasonable jurist could find merit in Mr. Hamilton’s claims. Mr. Hamilton’s motion
for leave to proceed in forma pauperis on appeal, dkt. [18], is denied.
Mr. Hamilton’s motion for certificate of appealability rehashes the arguments raised in his
j

petition and reply. The Court considered those arguments in denying a certificate of appealability.
Mr. Hamilton’s motion for certificate of appealability, dkt. [19], is therefore denied for the reasons
' discussed in the Court’s order denying habeas relief.

